n

r »> i’ />, (]

Vi.

20a,?6 71

FILED
MAR 1 7 2021

IN THE
SUPREME COURT OF THE UNITED STATES

OCTOBER TERM.2021

»

OFFICE OF THE CLERK
SUPREME COURT. U.S.

0,

RONALD E. JOHNSON EL- PETITIONER
(Your Name)
VS.

DEREK SCHMIDT, et al- RESPONDENT(S)
ON A PETITION FOR A WRIT OF CERTIORARI TO
THE UNITED STATES COURT OF APPEALS, FOR THE TENTH CIRCUIT
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)

PETITION FOR WRIT OF CERTIORARI
RONALD E. JOHNSON EL
(Your Name) "All Rights Reserved"
P.O. BOX 311, E.D.C.F. #79020
(Address)
EL DORADO, KS. 67042-0311
(City, State, Zip)_

(Phone Number)

LIST OF PARTIES

(_) All parties appear in the caption of the case on the cover page.
Q[) All parties do not appear in the caption of the case on the cover page,
a list of all parties to the proceeding in the court whose judgment is
the subject of this petition is as follows:
DEFENDANTS )
Derek Schmidt
Attorney General for
the State of Kansas
DEFENDANT
Jennifer L. Myers

DEFENDANT
Stephan D. Hill
Justice, Kansas Court of
Appeals
DEFENDANT
Kim R. Schroeder

Judge, Wyandotte County

Justice, Kansas Court of

District Court
DEFENDANT
R. Wayne Lampson
Chief Judge, Wyandotte County

Appeals
DEFENDANT
Gordon Atcheson

District Court
DEFENDANT
Dexter Burdette

Appeals
DEFENDANT
Jerome Gorman

Judge, Wyandotte County

Assistant District Attorney

District Court

Wyandotte County District

Justice, Kansas Court of

Attorney's Office

DEFENDANT

DEFENDANT
Daniel Obermier
Assistant District Attorney
Wyandotte County District
Attorney's Office
DEFENDANT

Lee Johnson
Justice, Kansas Supreme

Don Ash
Sheriff, Wyandotte County

Court

Sheriff's Department

DEFENDANT
Lawton Nuss
Chief Justice, Kansas
Supreme Court

.s-

rj

T

DEFENDANT
Roger Werholtz
Secretary of Corrections

DEFENDANT
Jeff Zmuda
Secretary of Corrections
Kansas Dept, of Corrections
DEFENDANT
Jeff Cowger

Kansas Dept, of Corrections
DEFENDANT
Ray Roberts
Secretary of Corrections
Kansas Dept, of Corrections
DEFENDANT

Chief Legal Counsel for
Kansas Dept, of Corrections
DEFENDANT
S. Scribner
Re-entry Dept.
Kansas Dept, of Corrections

Johnnie Goddard
Secretary of Corrections
Kansas Dept, of Corrections

DEFENDANT
Joe Norwood
Secretary of Corrections

DEFENDANT

Kansas Dept, of Corrections

Kansas Dept, of Corrections

John/Jane Doe (1)
Sentence Computation

DEFENDANT
John/Jane Doe (2 & 3)
Kansas Dept, of Corrections
7

QUESTIONS PRESENTED S51
Was Astorga v. Kansas remanded back to the Kansas Supreme Court for
the purpose of correcting with the Mandatory Sentence modification of Hard
40/50 provisions in the Sua Sponte K.S.A. 21-4639 and K.S.A. 21-6628(c)?
Does K.S.A. 21-4639/K.S.A. 21-6628(c) provide the remedy once the term
of imprisonment or any provision authorizing such term is ever held
unconstitutional by the United States Supreme Court or the Kansas Supreme
Court?
Is K.S.A. 21-4635 a Sixth Amendment violation which must be cured with
the Mandatory Sua Sponte correction remedy that is included within the
controlling law provided by K.S.A. 21-4639 & ElS.A. 21-6628(c)?

II

TABLE OF AUTHORITIES CITED

CASES
Ajpprendi v. New Jersey, 530 U.S. 466 (2000)

Pages 5, 8, 9
Pages 5, 8, 9
Alleyene V. United States, 570 U.S. 99, 133 S.Ct. 2151 (2013)
Pages 5
Astorga V. Kansas, 570 U.S.
, 133 S. Ct. 2877 (2013)
Pages 5
State V. Soto, 299 Kan. 102, 322 P.3d 334 (2014)
Pages 8
State V. Baker, 281 Kan. 997, 1018, 135 P.3d 1098 (2006)
State V. McCaslin, 291 Kan. 697, 727, 245 P.3d 1030 (2011) Pages 8

STATUTES AND RULES
The Hard 50 laws are all Sua Sponte, starting with K.S.A. 21-4635, 21-4636,
21-4637, 21-4638 and K.S.A.21-4639, renumbered in 2011 to the current, K.S.A.
21-6628(c), the Mandatory Sua Sponte modification of the Hard 50 sentence
once any of the prior four statutes are ever held unconstitutional* See
Pages 3, 4, 5, 6, 8 and 9.
OTHER
THE August 6, 2013 "Proclamation” by the Governor of Kansas, calling the
Legislature into Special Session to respond to the ruling in Alleyne, Supra,
shows that the Kansas Attorney General and experts in the field recognize
that the ruling by the United States Supreme Court in Alleyene, Supra,
rendered the "Hard 50" law unconstitutional and will "virtually guarantee"
that dozens of violent offenders will receive significantly weaker sentences.

Ill

TABLE OF CONTENTS

OPINIONS BELOW

1, 3

JURISDICTION

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

3, 4

STATEMENT OF THE CASE

5, 6, 7

BASIS FOR FEDERAL JURISDICTION

7

REASONS FOR GRANTING THE WRIT

8, 9

CONCLUSION

9
INDEX TO APPENDICES

Appendix A-

United States District Court for the District of
Memorandum and Order
Kansas

Appendix B- United States Court of Appeals for the Tenth Circuit
Order and Judgment
Appendix C- United States Court of Appeals for the Tenth Circuit
Order
Appendix D- Rule 6.09 Letter and Kansas Court of Appeals
Memorandum Opinion
/
Appendix E- Kansas Supreme Court Petition For Review
No. 17-117-323-A
Appendix F- Johnson V. State, 2018 Kan. LEXIS 731

IV

IN THE
SUPREME COURT OF THE UNITED STATES
MARCH 2021
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the
judgment below.
OPINIONS BELOW
(_) For cases from federal courts:
The opinion of the United States Court of Appeals appears at Appendix___t
to the petition and is
; or,
( ) reported at
(_) has been designated for publication but is not yet reported; or,
(X) is unpublished.
The opinion of the United States District Court appears at Appendix_
to the petition and is
(_) reported at_______
; or,
00 has been designated for publication but is not yet reported; or,
( ) is unpublished.
( ) For cases from state courts:
The opinion from the highest state court to review the merits appears at
to the petition and is
; or,
( ) reported at
(_) has been designated for publication but is notPyet]reported; or,

Appendix

(_) is unpublished.
The
the
(_)
( )

to
court appears at Appendix
opinion of the
petition and is
; or,
reported at ___
has been designated for publication but is not yet reported; or,

( ) is published

1

JURISDICTION
(X) For cases from federal courts:
The date on which the United States Court of Appeals decided my cage was
November 24, 2020
( ) No petition for rehearing was timely filed in my case.
(X) A timely petition for rehearing was denied by the United States Court
of Appeals on the following date: December 28, 2020, and a copy of the
order denying rehearing appears&at Appendix C
(_) An extension of time to file the petition for a writ of certiorari was
granted to and including
(date) in
(date) on
Application No. A-______
The jurisdiction of this court is invoked under 28 U.S.C. {S 1254(1).

(X_) For cases from state courts:
The date on which the highest.state _court decided my case was
. A copy of that decision appears at Appendix
September 1, 2017
00 A timely petition for rehearing was thereafter denied on the following
date: September 28, 2018, and a copy of the order denying rehearing
appears at Appendix F .
(_) An extension of time to file the petition for a writ of certiorari
was granted to and including
Application No. A-_________.

(date) on

(date) in

The jurisdiction of this Court is invoked under 28 U.S.C. ^ 1257(a).

2

OPINIONS BELOW
The orders of the United States District Court for the district of
Kansas, as well as the order of the United States Court of Appeals for the
Tenth Circuit, is attatched as Appendix A and Appendix B, Case No. 20-3017SAC, No. 20-3168.
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
U.S.C.S. Const. Amend 14
"All persons born or naturalized in the United States, and subject
to the jurisdiction thereof, are citizens of the United States and of
the state wherein they reside. No state shall make or enforce any law
which shall abridge the privileges or immunities of the citizens of the
United States; nor shall any state deprive any person of life, liberty
or property without due process of the laws."
U.S.C.S. Const. Amend, 6
"In all criminal prosecutions, the accused shall enjoy the right to a
speedy and public trial, by an impartial jury of the state and district
wherein the alleged crime shall have been committed, which district
shall have been previously ascertained by law, and to be informed of
the nature and cause of the accusation; to be confronted with the
witnesses against him; to have compulsory process for obtaining witnesses
in his favor, and have assistance of counsel forThis defense^"
K.S.A. 21-4635
"Sentencing of certain persons to a mandatory term of imprisonment of
40 or 50 years or life without the possibility of parole; determination;
evidence presentedj balance of aggravating and mitigating circumstances."
(a) " Except as provided in K.S.A. 21-4622, 21-4623 and 21-4634 and
amendments thereto, if a defendant is convicted of the crime of capital
murder, and a sentence of death is not imposed pursuant to subsection (e)
K.S.A. 21-4624, and amendments thereto, or requested pursuant to
subsection (a) or (b) of K.S.A. 21-4624, and amendments thereto, the
defendant shall be sentenced to life without the possibility of parole."
(b) "If a defendant is convicted of murder in the first degree based
upon the finding of premeditated murder, the court shall determine
whether the defendant shall be required to serve a mandatory term
of imprisonment of 40 years, or for_crjmes committed on or after
July 1, 1999, § mandatory term of^1 imprisonment of 50 years or sentenced
as otherwise provided by law."
(c) "In order to make such determination, the court may be presented
evidence concerning any matter that the court deems relevant to the
question of sentence and shall include matters relating to any of the
aggravating circumstances enumerated in K.S.A. 21-4636 and amendments
thereto and any mitigating circumstances. Any such evidence which the

3

A

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED (CONT'D.)
....... court deems to have probative value may be received regardless
of its admissibility udder the rules of evidence, provided that the
defendant is accorded a fair opportunity to rebut any hearsay state-,,,- ~t
ments. Only such evidence of aggravating circumstances as the state
has made known to the defendant prior to the sentencing shall be ad­
missible and no evidence secured in violation of the Constitution of
the United States or the state of Kansas shall be admissible against
the defendant at any subsequent criminal proceeding. At the conclusion
of the evidentiary presentation, the court shall allow the parties a
reasonable period of time in which to present oral argument."
(d) "If the court finds that one or more of the aggravating circum­
stances enumerated in K.S.A. 21-4636 and amendments thereto,exist and,
further.,that the existence of such aggravating circumstances is not
outweighed by any mitigating circumstances which are found to exist,
the defendant shall be sentenced pursuant to K.S.A. 21-4638 and amend­
ments thereto; otherwise, the defendant shall be sentenced as provided
by law. The court shall designate, in writing, the statutory aggravating
circumstances which it found. The court may make the findings required
by this subsection for the purpose of determining whether to sentence
a defendant pursuant to K.S.A. 21-4638 and amendments thereto notwith­
standing contrary findings made by the jury or court pursuant to
K.S.A. 21-4624, subsection (e) and amendments thereto for the purpose
of determining whether to sentence such defendant to death."
K.S.A. 21-4639
**Same; provisions of act held unconstitutional; modification of sentence
previously determined under this act."
"In the event that the mandatory term of imprisonment or any provision
of this act authorizing such mandatory term is held to be unconsti*
tutional by the Supreme Court of Kansas^br the United States Supreme
Court, the court having jurisdiction over a person previously sentenced
shall cause such person to be brought before the court and shall modify
the sentence to require no mandatory term of imprisonment and shall
sentence the defendant otherwise as provided by law."
(K.S.A. 21-4639 was simply renumbered to the following:)
K.S.A. 21-6628 (c)
"Provisions of certain sentencing rules held unconstitutional; modi­
fication of sentence previously determined."
"In the event the mandatory term of imprisonment, or any provision of
Chapter 341 of the 1994 Session Laws of Kansas authorizing such manda­
tory term is held to be unconstitutional by the Supreme Court of Kansas
or the United States Supreme Court, the court having jurisdiction over
a person previously sentenced, shall cause such person to be brought
before the court and shall modify the sentence to require no mandatory
term of imprisonment and shall sentence the defendant as otherwise
provided by law."

4

STATEMENT OF THE CASE

In 2013, the United States Supreme Court remanded Ast@rga ▼/ Kansas,
, 133 S.Ct. 2877 (2013) to the Supreme Court of Kansas for
570 U.S.
correction in light of Alleyne v. United States, 570 U.S. 99, 133 S. Ct.
2877 (2013). This Court held Alleyne is an extension of Apprendi v. New
Jersey, 530 U.S. 466 (2000), which is long before Petitioner’s sentencing
in 2003. Eight months after this Court remanded Astorga to the Supreme Court
of Kansas, the same Court held K.S.A. 21-4635 unconstitutional, stating
that it violates one’s sixth amendment constitutional due process protections,
finding that K.S.A. 21-4635 allowed a judge to increase one’s sentence, with4;__
out the fact-finding of a jury. This goes against the two cemented principles

f

of law that the Apprendi decision had announced for criminal sentencing:
1. If the state is seeking an upward departure sentence, it must
include that particular fact in the charging document.
2. Any fact-finding required for imposition of a upward departure
sentence must be done by a jury, not a judge.
fl
Both of these Supreme Court principles of lavrjfere
violated in the
Petitioner’s case-at-hand. Even though the mandatory correction provision
K.S.A. 21-4639/21-6628(c) is the Color of State Law, provision for correction
of any violations of the Hard 50 Act, the Kansas Courts, along with the
defendants named previously, have all ignored their own Sua Sponte provision,
which has been in place since 1994 to correct any violations that followed
afterward.
The 1994 Session Laws of Kansas, Chapter 341, made the Hard 40/50 Act
law, starting with K.S.A. 21-4635, K.S.A. 21-4636, K.S.A. 21—4637, K.S.A.
21-4638 and K.S.A. 21-4639,' tjie~L~atter"Ts the mandatory correction provision
in the event that any of the proceeding four provisions are ever held un­
constitutional by this Court, or the Supreme Court of Kansas.
The Supreme Court of Kansas has held K.S.A. 21-4635 unconstitutional
in State v. Soto (2014), stating that K.S.A. 21-4635 violates one’s sixth
constitutional amendment due process protections. The mandatory correction
provision K.S.A. 21-4639, which is now K.S.A. 21-6628(c), is the Sua Sponte
duty of the Kansas Courts, as well as Defendant/Attorney General Derek Schmidt’s

5

\/

-f

STATEMENT OF THE CASE, (CONT’D.)

as the entire Hard 40/50 Act is Sua Sponte-which is the absolute core of why
K.S.A. 21-4635 is a sixth constitutional amendment violation.
The Kansas Courts and Defendant Derek Schmidt have lost all jurisdiction
to the present case after refusing to enact and enforce the mandatory
correction of Color of State Law and the provisional correction remedy that
is set forth in K.S.A. 21-6628(c), formerly known as K.S.A. 21-4639.
K.S.A. 21-6628(c)/21-4639 is/are the predetermined provision which was
enacted in 1994, nor has it ever been changed to date. The provisions that
are set out in K.S.A. 21-4639 and K.S.A. 21-6628(c) are superseding pro- f
visions that circumvent all judicially conducted analysis-it is for the
correction of any of the four preceeding statutes that may at some time in
the future beil^; j held to be unconstitutional. As is the case here, K.S.A.
31-4635 was found to be unconstitutional well over seven years ago, almost
eight years ago to the current date.
Petitioner invoked K.S.A. 21-4639/21-6628(c) in a KSC 6.09 authority
letter to the Kansas Court of Appeals on May 12, 2017. This fact, along with
the law was ignored by that court and the Petition For Review denied on
September 28, 2018. Petitioner then invoked his mandatory right to this
Color of State Law provision in the District Court of Wyandotte County,
Kansas on October 4, 2018. This is currently pending review in the Kansas
Supreme Court (Please see all exibits and affidavits on record). As the
Kansas Courts-at the urging of Defendant/Attorney General of Kansas Derek
Schmidt-have become more and more indifferent of their own statutes and
laws, while remaining indifferent to Petitioner's Civil rights, Statutory
rights and protections, as well as his constitutional rights and protections,
while ignoring the provisions and protections afforded by the Color of State
Laws/Sthtutes and Constitutional provisions, violating all of the aforemen-^
tioned, rights, provisions and protections, Petitioner was left with no
viable choice but to file the Ku Klux Klan Act/1983 Civil Claim before this
Honorable Court at this time:
WHEREFORE, Petitioner humbly asks this Honorable Court to grant his
Writ for Certiorari and issue a dedatory judgment, as well as an
injunction for relief.

6

_

BASIS FOR FEDERAL JURISDICTION

This case raises questions about the interpretation and application
of the Fifth, Sixth, Eighth and the Fourteenth Amendments of the Constitution
of the United States of America within the sentencing proceedings in State
Court and the proper Due Process afforded in the sentencing Statutes that
govern the Mandatory correction of impositions of sentencing violations
that are found to be unconstitutional at the State and Federal levels, as
well as any and all violations of the United States Constitution in general.
This Honorable Court obtains Federal Jurisdiction under 28 U.S.C. | 1257.

7

IMPORTANCE OF QUESTIONS PRESENTED

Js the Court in Alleyeheinstructed, it did not announce a new rule, the
decision is only an extension of Apprendi; stating that a}.} elements that
could result in an increase in one’s sentence must be presented to a jury.
In the State of Kansas, 78 out of 140 Hard 40/50 cases (at least),
Apprendi was raised, therefore preserving the issue for future review, as is
the case which is now before this Court (State v. Johnson 2007).
The Kansas Supreme Court held that K.S.A. 21-4635 i£/a violation of the
Sixth Amendment. The Kansas Supreme Court also held that K.S.A. 21-4635
authorizes the Hard 50 sentence; See: State v. Baker, 281 Kan. 997, 1018,
135 P.3d, 1098 (2006); State v. McCaslin, 291 Kan. 697, 727, 245 P.3d 1030
(2011); citing Baker at 1081 ("Hard 50 sentencing is authorized by K.S.A.
81-4635, which requires the Court to weigh evidence of any mitigating
circumstances against evidence of any aggravating circumstances”).
Baker and McCaslin both contradict the State’s argument and the ruling
in State v. Coleman (2020) that K.S.A. 21-4635 through K.S.A. 21-4637 merely
outline the conditions neccessary for imposing the Hard 50 sentence. As
Baker explains that K.S.A. 21-4635 authorizes the imposition of the Hard 50
sentence. The United States Federal District Court for the District of Kansas
nor the United States Court of Appeals for the Tenth Circuit have never
addressed these issues of contradictions. How will the Due Process be
affected when State Court Judges act without jurisdiction or with an in­
difference to the Statutes which govern these cases? And to then proceed
with a Judicial Retroactive Analysis-when they know and recognize that they
are out of jurisdiction?
REASONS TO GRANT PETITION
The Kansas Courts and Defendant/Attorney General Derek Schmidt, et al,
all have chosen to ignore their very own Sua Sponte Mandatory provision to
correct the erroneous Hard 50 sentence, which the Petitioner is presenting
here.
The Defendants knew that K.S.A. 21-4635 authorized the Hard 50 sentence.
The Defendants also had to be aware that the Kansas Supreme Court has held
K.S.A. 21-4635 as being unconstitutional.

8

REASONS FOR GRANTING PETITION (CONT'D)

The Defendants were aware that they proceeded without jurisdiction
once they ignored the proper authority and only Mandatory Sua Sponte correc­
tional provision contained within K.S.A. 21-4639 arid K.S.A. 21-6628(c),
which requires sentence modification pursuant to the wording and guidance
contained therein. Which will be within the correct principles of law this
Court set forth in Alleyea v. United States, 570 U.S. 99 (2013) and
Apprendi v. New Jersey, 530 U.S. 466 (2000). In light of the fact that this
is a violation of the Sixth Amendment-without question-Petitioner prays
that this Honorable Court grant the relief requested.
CONCLUSION
Because the Kansas Courts, along with many other Courts are improperly
denying the Mandatory Correction Remedy provided for in K.S.A. 21-4639 and
K.S.A. 21-6628(c), after the Kansas Supreme Court has held for several years
that K.S.A. 21-4635 is indeed unconstitutional.
For the aforementioned reason, Petitioner has the utmost faith that
this Honorable Court will grant this petition and issue a Writ of Certiorari
to the United States Court of Appeals for the Tenth Circuit, the United
States Federal District Court for the District of Kansas and the Supreme
Court of Kansas with declatory and injunctive orders to the Courts.

Honorably and Humbly Submitted,

Je

Ronald E. Johnson El
All Rights Reserved
Ronald E. Johnson El
#79020
P.0. Box 311
E.D.C.F.
El Dorado, KS. 67042-0311

9

